CERTIFICATE OF SERVICE
I, Dennis P. Riordan, a member of the Bar of this Court, hereby certify
pursuant to Supreme Court Rule 29.5(b), that on July 15, 2019, one copy of the
APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT
OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT in the above entitled case was mailed to each party identified
below or on that party’s counsel by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid. I further certify that all parties required to be served
have been served.
The name(s) and address(es) of those served are as follows:
United States of America
Noel J. Francisco
Acting Solicitor General of
the United States
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

DATED: July 15, 2019
Dennis P. Riordan
1611 Telegraph Ave., Ste. 806
Oakland, CA 94612
(415) 431-3475
Counsel of Record For Petitioners

